No. ________________
In The
Supreme Court of The United States
ANTONIO MILLER

*

vs.
UNITED STATES

*
*

No.

PROOF OF SERVICE
I hereby certify that on this 14th day of September, 2020, I have, as required
by Supreme Court Rule 29, filed and served the enclosed Motion for Leave to Proceed
In Forma Pauperis and Petition for a Writ of Certiorari on each party to the above
proceedings or that party’s counsel, and on every other person required to be served,
by delivery by a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served via third-party commercial carrier
are as follows:
Jane Barrett Taylor
OFFICE OF THE UNITED STATES ATTORNEY
1441 Main Street, Suite 500
Columbia SC 29201-2692
803-929-3000
Jane.Taylor@usdoj.gov
Thomas Ernest Booth
U. S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW, Room 1511
Washington DC 20530-0000
202-514-5201
thomas.booth@usdoj.gov

Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Date: September 14, 2020

Respectfully submitted,
/s/ Derek J. Enderlin
Derek J. Enderlin
ROSS & ENDERLIN, PA
330 East Coffee Street
Greenville, SC 29601
(864) 710-3936
derek@rossenderlin.com
Counsel for Petitioner

